<html>
<title> - THE PRESIDENT'S VISIT TO VIETNAM: A MISSED OPPORTUNITY TO ADVANCE HUMAN RIGHTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


THE PRESIDENT'S VISIT TO VIETNAM: A MISSED OPPORTUNITY TO ADVANCE HUMAN 
                                 RIGHTS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 22, 2016

                               __________

                           Serial No. 114-213

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 __________
                                 
                                 
                      U.S. GOVERNMENT PUBLISHING OFFICE
20-530PDF                     WASHINGTON : 2016                      
                                 
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99fee9f6d9faeceaedf1fcf5e9b7faf6f4b7">[email&#160;protected]</a>  
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                
                              --------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Pastor Rmah Loan (former head, Southern Evangelical Church of 
  Vietnam--Dak Nong Province)....................................     6
Ms. Katie Duong, overseas representative, Popular Bloc of Cao Dai 
  Religion.......................................................    11
Nguyen Dinh Thang, Ph.D., president and chief executive officer, 
  Boat People SOS................................................    17
Mr. T. Kumar, director of international advocacy, Amnesty 
  International..................................................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Pastor Rmah Loan: Prepared statement.............................     8
Ms. Katie Duong: Prepared statement..............................    13
Nguyen Dinh Thang, Ph.D.: Prepared statement.....................    20
Mr. T. Kumar: Prepared statement.................................    26

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Statement of Ms. Jackie Bong Wright.............    50

 
                  THE PRESIDENT'S VISIT TO VIETNAM: A
                     MISSED OPPORTUNITY TO ADVANCE
                              HUMAN RIGHTS

                              ----------                              


                        WEDNESDAY, JUNE 22, 2016

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. Subcommittee will come to order and good 
afternoon to everyone.
    Over the past 20 years, much has changed in Vietnam. Some 
Vietnamese are a little richer, but universally recognized 
human rights remain elusive for most.
    The Vietnamese Communist Party has opened up a bit to the 
outside world but remains closed to the idea of democracy and 
the rule of law. U.S.-Vietnamese relations have warmed because 
of Vietnam's fears of China's increasing economic power and its 
incursions into the South China Sea.
    But human rights improvements have not come from so-called 
better relations. The administration has included Vietnam, a 
dictatorship, among several democracies in the Trans-Pacific 
Partnership, granted potentially lucrative trade benefits to 
Communist leaders.
    Shockingly, during his recent trip, President Obama gave up 
the U.S. arms embargo. In other words, the U.S. is poised to 
provide lethal weapons to a brutal dictatorship that jails and 
tortures dissidents.
    Where are the background checks, Mr. President, of those 
soldiers and secret police who will have access to 
sophisticated weapons?
    Who will monitor the use or abuse of these lethal weapons? 
What is triggered if U.S.-supplied weapons are used to commit 
atrocities?
    The reality is that the administration chose to reward one 
of Asia's most repressive regimes with the region's most worst 
human rights record without getting any tangible progress on 
freedoms and liberties.
    We did hear the administration touting the bilateral labor 
consistency plan. It's signed as part of the TPP. But as the 
submitted testimony by Jackie Bong Wright states, as of today 
independent labor unions remain prohibited. Labor activists are 
in jail and labor organizers are severely beaten.
    That the Vietnamese also detained and prevented civil 
society activists from meeting President Obama during his visit 
was not just an insult to the President, it is a bare-fisted 
demonstration of Vietnam's repressive government.
    His visit was an epic failure of diplomacy. The President 
has said repeatedly that he wants to rise above history and 
heal wounds with America's old adversaries.
    But that is not done by signing bad deals with dictators, 
giving them lethal weapons, and getting nothing in return.
    This is shortsighted, misguided, and driven by an 
ideological agenda more than a clear assessment of long-term 
U.S. interests. The end result of the President's visit is that 
the American people now get to subsidize the lifestyles of 
Communist Party leaders and underwrite their repression of 
religious communities and rights advocates.
    Vietnamese-Americans have asked this Congress and the last 
three administrations to prioritize human rights concerns with 
Hanoi.
    But a small group of Vietnam ``experts'' in Washington veto 
these plans, holding on to the mistaken belief that trade, 
investment, and engagement will bring about political reform.
    Trade, investment, and engagement failed to change Vietnam 
in 2001, the bilateral trade agreement failed to bring reforms 
in 2007 when Vietnam joined the WTO, and it will fail now.
    Just look at China for what will happen when authoritarian 
governments get rich. They get the resources they need to 
expand censorship and repression, to grow their secret police 
and military capabilities and, above all, to stay in power.
    The President said famously in his inaugural address that 
if authoritarian countries would unclench their fists the U.S. 
would extend an open hand.
    But I see no tangible evidence that Vietnam, Cuba, or Iran, 
for that matter, have unclenched their fists. In fact, just the 
opposite is true.
    The President seems more interested in photo opportunities 
with dictators than standing up for persecuted individuals who 
share our desire for freedom, democracy, and human rights.
    This is not smart diplomacy. It is a surrender of U.S. 
interests and values. Sadly, the President's legacy will be the 
propping up of a Communist old guard when he should be standing 
with the new generation of freedom advocates in Vietnam.
    We should stand with the oppressed, not with the oppressor. 
We must stand in solidarity with them. Over 100 prisoners of 
conscience remain detained in Vietnam, including human rights 
lawyer Nguyen Van Dai.
    I met with Nguyen Van Dai in Hanoi in 2005 and his 
courageous wife, Vu Minh Khanh, testified at a subcommittee 
hearing several weeks ago in anticipation of the President's 
trip.
    Why did the administration not demand the release of Vu's 
husband and all of these other prisoners and do so in public? 
To be strong and bold yet diplomatic?
    Father Ly was released into house arrest a few months prior 
to his sentence ending, and this is not a human rights 
breakthrough. Father Ly went into prison healthy and vigorous 
but emerged sickly and broken.
    I met him years ago when he was under house arrest another 
time after being released from a long incarceration. He is an 
amazing Catholic priest like so many of the leaders of the 
religious communities including the Venerable Thich Quang Do 
with whom I also met with and he continues to be under pagoda 
arrest.
    I have met with a broad spectrum of Vietnam's rights 
advocates, religious leaders, and activists and I know there is 
a younger generation of Vietnam--66 percent of Vietnam is under 
the age of 40--that looks to U.S. leadership.
    They want the United States to push for political reforms 
and universally-recognized human rights. They hunger for the 
type of liberty and a life they see enjoyed by their relatives 
in New Jersey, California, Virginia, Texas, Louisiana, and in 
many other parts of this country and around the world--places 
where the Vietnamese diaspora have migrated and have flourished 
and have been great citizens.
    It is for this reason that I am asking and making another 
push to pass legislation that I have authored known as the 
Vietnam Human Rights Act. This bill has passed four times only 
to be blocked in the Senate--first time back in the year 2004.
    The bipartisan Vietnam Human Rights Act will restore the 
right priorities to U.S. policy toward Vietnam and will limit 
U.S. non-humanitarian assistance that goes to Vietnam until 
there are concrete human rights protections.
    The bill also says that Vietnam should be designated as a 
Country of Particular Concern (CPC) for its religious freedom 
violations. Just last week, I chaired a hearing, and Dan will 
remember it well.
    We had the Ambassador-at-Large for International Religious 
Freedom and the former Chairman of the U.S. Commission on 
International Religious Freedom and the Commission has made a 
very strong and consistent appeal to the IRF office to put 
Vietnam in that CPC category.
    It had been taken off prematurely during an economic 
agreement in the false hope that there would be deliverables 
that never happened.
    People who came forward including those who signed Bloc 
8406, a wonderful human rights manifesto, found themselves 
targeted because they signed on and did so openly in the belief 
that somehow after the agreement with the United States there 
would be a new era. That era has not happened.
    We all know that CPC designation worked when it was used by 
the Bush administration but, again, I believe that the Bush 
administration lifted it prematurely in anticipation of, but 
without, concrete changes made.
    The Communist Party is not Vietnam's future. That future 
lies with the Nguyen Van Dais and many other advocates of 
political reform and human rights who seek our freedoms more 
than our trade.
    U.S. policy must send the unmistakable message to the 
Government of Vietnam that human rights improvements are 
important to better relations critically linked to our mutual 
economic and security interests and will not be ignored nor 
will they be bargained away.
    The President failed to send this message. It is up to the 
Congress and the next administration, although there are some 
months remaining in this one, to restore the right priorities 
to the U.S.-Vietnam relations.
    I would like to now yield to my friend, Mr. Donovan, for 
any comments.
    Mr. Donovan. Thank you, Mr. Chairman.
    I would like to yield my time to give the witnesses more 
time to testify. I look forward to their testimony and to their 
insight into the relations between our country and theirs.
    Mr. Smith. Thank you.
    I would like to now welcome our distinguished witnesses to 
the witness table, beginning first with Pastor Rmah Loan, who 
is a Montagnard pastor with Christian Missionary Alliance and 
later became chaplain of a Montagnard church that is affiliated 
with the Southern Evangelical Church of Vietnam. His church has 
36,000 followers and the authorities often showcase it to 
foreign missions that visit central highlands. Pastor Loan was 
the head of his church only in title.
    The government put in place an administrative committee to 
oversee all operations of the church. It made all decisions and 
Pastor Loan had no say whatsoever. Every statement of Pastor 
Loan must be vetted by this committee and preapproved by the 
proper security apparatus.
    In June 2014, Pastor Loan and his wife came to the United 
States at the invitation of a local church but they have not 
returned under the threat of arrest.
    We will then hear from Ms. Katie Duong, who is the overseas 
representative of the Popular Bloc of Cao Dai Religion, also a 
member of the Advisory Committee for Religious Freedom in 
Vietnam.
    Until recently, her father, Mr. Duong Xuan Luong, a senior 
member of the Popular Bloc of Cao Dai, continued to lead it in 
Vietnam, facing increasing threats by local authorities who 
fled to Thailand early this year but has continued to lead and 
advocate for the Popular Bloc of Cao Dai Religion and has filed 
multiple reports on violations of freedom of religion to the 
U.N. Special Rapporteur on freedom of religion or belief.
    We will then hear from Dr. Nguyen Dinh Thang, who I have 
known for 25 years or more. Dr. Thang came to the United States 
as a refugee from Vietnam in 1979.
    After earning his Ph.D. he began volunteering at Boat 
People SOS in 1988. Now serving as head of Boat People SOS, Dr. 
Thang has worked for the past 25 years to resettle 20,000 boat 
people to the U.S. after they were rescued from Vietnam and 
also has worked to rescue more than 4,000 victims of 
trafficking.
    He has received numerous awards for his extensive work on 
human rights. He travels extensively to Asia and I would note 
parenthetically on the boat people it was Dr. Thang who alerted 
this subcommittee.
    It resulted in four hearings including a closed briefing 
with the administration in the hopes that they would reform 
their efforts to send so many back who had been found to be 
real refugees. And as a direct result of his leadership, those 
20,000 people came in under the ROVR program and had it not 
been for him that would not have happened.
    So thank you. Those families are deeply appreciative as am 
I and this subcommittee for your leadership.
    Then we welcome back again Mr. T. Kumar, who is Amnesty 
International's director for international advocacy. He has 
testified many times before the U.S. Congress on human rights 
abuses.
    He has served as a human rights monitor in many Asian 
countries as well as Bosnia, Afghanistan, Guatemala, Sudan, and 
South Africa. He has also served as director of several refugee 
ships and camps. T. Kumar was a political prisoner himself for 
5 years in Sri Lanka for his peaceful human rights activities.
    Amnesty International adopted him as a prisoner of 
conscience and now he, on the leadership side, tried to help 
many others and to rescue many others from that cruel fate.
    I would like to yield to Chairman Rohrabacher if he has any 
opening comments.
    Mr. Rohrabacher. I am upset at this administration but I 
have to be fair to this administration when I say that. I have 
been upset with other administrations as well, Republican and 
Democratic, when it comes to issues like being serious about 
human rights.
    American leaders can sit right next to tyrants and 
gangsters and not even bring up the fact that they have a one-
child policy, for example, in China where millions of babies 
were being murdered.
    And in the case of Vietnam, you know, and we have a 
President who can go to Vietnam but can't go see General Sisi 
in Egypt. That tells us something.
    The Government of Vietnam is in no way consistent with what 
the American people believe is honest government and consistent 
with any of the principles of democracy that we believe in.
    And this administration has just basically closed their 
eyes to those particular fundamentals that are supposed to be 
the basis of our own Government. Well, if we don't believe in 
it enough to bring this up and make that a major issue of 
contention between our governments, what does that say about 
our own beliefs in our own system here?
    So, Mr. Chairman, again, I always admire your willingness 
to spend your time and your effort to focus on the fundamental 
issue that really counts and that is whether we respect the 
human rights of the people of whatever country it is and 
whether we expect those governments to maintain a certain 
standard.
    Vietnam is nowhere near that standard and the United States 
needs to say so aggressively and if indeed they want to make 
things better we should work with them and try to make it 
better.
    But at this point, they certainly haven't come close, and 
thank you for holding this hearing today.
    Mr. Smith. Thank you, Chairman Rohrabacher.
    Pastor Loan.

     STATEMENT OF PASTOR RMAH LOAN (FORMER HEAD, SOUTHERN 
       EVANGELICAL CHURCH OF VIETNAM--DAK NONG PROVINCE)

    [The following statement was delivered through an 
interpreter.]
    Pastor Loan. The Honorable Christopher Smith, distinguished 
Members of Congress, my name is Rmah Loan. I was born on 
February 12th, 1950. I have been a pastor for 44 years under 
the Southern Evangelist Church of Vietnam.
    From 1967 to 1969, I assisted American special forces 
during the Vietnam War. Afterward, I went to biblical school in 
Ban Me Thuot to study theology.
    I worked as a pastor in residence for 2 years until I was 
detained by the Communist force in 1975. I was imprisoned for 8 
years.
    I was in jail for 8 years because of my Christian belief 
and support for the United States Armed Forces. After my 
release from prison, I remained under house arrest until 1986.
    In 1986, I was appointed by the Southern Evangelical 
Christians of Southern Vietnam to be in charge of the 
Evangelical Church in Budak village where I remained until 
2014.
    In 2014, I came to the United States for church-related 
business but then found out I could return to Vietnam in 
safety. Now I am asking this great nation to grant me asylum 
because if I return to Vietnam I will be imprisoned again, 
tortured, and even killed.
    Today, I would like to tell you about my church in Budak, 
Thuan An, Dak Mil, Dak Nong Province. This church serves 
approximately 100,000 followers throughout Dak Nong Province 
that includes ethnic Bunong, Hmong, Giao, San Chi, Nung, Tay, 
and Kinh.
    In 2007, Hanoi allowed the congregation to build the church 
in Budak. Even though we have a church, we do not have the 
freedom to practice our religion. The Vietnamese Government 
controls the executive committee that leads the church.
    Any time we want to hold elections for the executive 
committee, we have to inform the subdistrict, district, and the 
Dak Nong Province police to request their permission.
    The church must provide full names of our candidates for 
background checks. To be eligible, a candidate must not have 
been in service of the South Vietnam Government or a member of 
the FULRO, United Front for the Liberation of Oppressed Races, 
or any deemed to be opposed to the Hanoi Government.
    On election day, the government authorities preside over 
the election process. The government authorities also attend 
and observe all ordination ceremonies.
    When the church wants to celebrate holidays such as 
Christmas, Easter or for a wedding or a funeral service, the 
pastor must get prior permission from the authorities--the 
specific date, time, duration of the service, as well as the 
number of participants.
    The pastor must provide the text of his sermon to the 
government 7 days before the service for prior approval. The 
government even controls the words that we can use in our 
sermon.
    It is forbidden to use such words as devil because in 
Vietnamese ``ma quy'' can be flipped around to spell ``My qua'' 
meaning that Americans are coming back. For such absurd 
reasons, we may not mention devil in our sermon.
    Similarly, we may not say that Christ is coming again 
because the authorities interpret that as meaning Americans 
will return to Vietnam.
    The Vietnamese Government accused Protestantism to be an 
American religion, neither may we use the word freedom because 
the government believes that freedom refers to America, as in 
the Land of the Free.
    The authorities also send their operatives to come and 
monitor our services. At the start of the service, the program 
leader must recognize and give thanks to the Communist Party 
and government officials first and then we can give thanks to 
the Lord, the guests and the church, in that order.
    In 2014, my wife and I came to the United States at the 
invitation of a local church. As soon as we were in the 
country, we received notice from a fellow pastor in Vietnam 
advising me not to return because the authorities were 
investigating my children about our whereabouts.
    The authorities suspect that I had disclosed to the world 
the death by torture of a Hmong member of my church. In 2013, 
Hoang Van Ngai, a faithful and dedicated deacon at our church, 
was detained and beaten to death.
    The authorities ordered me to never mention this incident 
and threatened my life if I dare to defy their order. In 2014, 
news about Deacon Ngai's death by torture became known to the 
world.
    The authorities suspect that I was the source of 
information. I was not. Regardless, if I return to Vietnam now, 
I will be detained, tortured and likely killed the same way 
they killed Deacon Hoang Van Ngai.
    It has not been easy on me and my wife because our children 
are left in Vietnam. I am applying for asylum in the United 
States but it can take years for my fate to be decided.
    America is the land that was founded in religious freedom. 
Just like the immigrants and refugees from hundreds of years 
ago, I have reached the shore of America, seeking safety and 
freedom.
    I ask that you, as the leaders of the United States, to 
never forget that millions of people around the world are 
suffering every day all because of the god they believe in. I 
ask that you continue to protect them and also that you protect 
my wife and me so we do not have to face persecution in the 
hands of Vietnamese authorities.
    We believe President Obama and leaders of the free world 
must have a road map for peace, freedom and democracy for 
Vietnam.
    We must stand with one voice, one heart, and one task, 
working together to defend the rights of religious freedom for 
Montagnard Evangelical Christians and all Vietnamese citizens 
in Vietnam.
    Thank you for the privilege to speak freely for the first 
time in 41 years. Thank you for remembering the Montagnard 
people and taking a stand for our survival. May God bless you 
and the United States of America.
    May God bless you and the United States of America.
    Thank you for the time to speak and my chance to be here in 
America. I want to stay here so I can save my life.
    [The prepared statement of Pastor Loan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    			----------                              

    Mr. Smith. Pastor Loan, thank you for your very courageous 
and compelling testimony. It really is extremely helpful that 
the American public, this subcommittee, the Congress, hear what 
you just said as well as our other witnesses. So on behalf of 
all of us, thank you so very much.
    I would like to now recognize Ms. Duong. Please present 
your testimony.

STATEMENT OF MS. KATIE DUONG, OVERSEAS REPRESENTATIVE, POPULAR 
                    BLOC OF CAO DAI RELIGION

    Ms. Duong. Good afternoon, ladies and gentlemen, Mr. 
Chairman and distinguished Members of Congress. My name is 
Katie Duong Skiba and it is my honor to be here today to 
present about my religion, Cao Dai, which is a very small 
religion founded in Vietnam in 1926.
    Now, we Cao Dai people call for unity, love, peace and 
respect for all other faiths and we have our own faith, 
rituals, and traditions. However, the Communists--the 
Vietnamese Communist Government has been trying to change 
everything.
    And my presentation today will have three parts--government 
takeover, ongoing persecutions, and request for support.
    So the government took over our main temple after 1975 and 
disbanded all the leadership's organization and they basically 
told us to go home. And after that they confiscated our main 
temple and all other temples, and after a while they appointed 
their people--the Communist people--to control the temple and 
the whole Cao Dai Religion.
    They changed our rituals and they forced all of us to obey 
their disciplines, which we do not agree, and because of that 
we have been facing a lot of ongoing persecutions. And then I 
would like to show you a few pictures of the recent.
    So since 1975, we have been facing, you know, government 
takeover and we have been trying so hard to get together and 
tell the government that we need religious freedom--give us the 
right--give us back the temple.
    This happened in May last year when almost 1,000 people 
went back to the temple asking them to let us hold a meeting to 
elect our own leaders instead of them forcing the Communist 
leader on us.
    And they basically banned us from approaching the temple, 
and I can show you a lot of people who could not get into the 
premises. And it's kind of dark but you can see the man was 
arrested and these women have paint on their ao dai, which is 
the traditional dress that the Cao Dai people wear.
    So these are things that happened and at a funeral if we 
don't let the Communist Cao Dai come to host the ceremony they 
will attack us. And you see that this is the funeral--the 
ceremony that we had and, you know, got destroyed, basically.
    And this is the Divine Eye installation which is a very 
important ceremony that people have--religion have to install 
that at their house. You see the first picture there's a 
picture of the Divine Eye.
    But the second picture of the Divine Eye portrait was taken 
away by those people. That is a very insulting action and they 
basically came in and we closed the door and they tried to get 
in. They attacked us and this has been, like, ongoing.
    It is not one incident. It has been going on and on and on. 
We got hurt. People got imprisoned and vandalism and people got 
arrested in the van or truck.
    Do you see that? In the last picture on the bottom right 
corner, people was arrested to the government offices just 
because we are practicing our religion.
    And these documents show that these people could not get 
out of the country because they are trying to go to Thailand to 
attend their Asian Religious Freedom Forum.
    So we have all different kinds of persecutions and ongoing 
violations for religious freedom. A personal example would be 
my family and my father.
    He was arrested and put into jail when I was 15 and my 
younger sister was only 10. My mother had to take care of the 
whole family of four children by herself and with a lot of 
difficulty financially caused by the government.
    And then after getting out of prison, my father continued 
to fight for religious freedoms and then--and they continued to 
harass him. In 2008, they tried to arrest him again to put him 
in jail.
    But, luckily, he was not at home and they have been trying 
to arrest him since then, and recently they have been given 
threats again. So my father has to, you know, get out of the 
country. As a U.S. citizen I have sponsored my father and my 
mother to come with me to the United States.
    My mom could come with me but my father, unfortunately, the 
Vietnamese Government refused to give him a passport or any 
documentation to go through the visa process.
    My last section will be our request for support. If 
possible, we would love to remain independent from the 
government control.
    We don't want any interference from the government and we 
want to reserve our culture the unique way that we practice our 
religions. In order to do so we have to have freedom of, you 
know, movement, freedom of assembly, association, freedom of 
speech, and information.
    We want the Vietnamese Government to respect human rights, 
especially religious freedom rights that they have signed for 
the universal agreement with the United Nations.
    And with the growing bilateral development connection 
between the U.S. Government and the Vietnamese Government, the 
U.S. Government has solid ground to remind the Vietnamese 
Government to respect that and that is a value that the U.S. 
has been living on. So we look forward to that and I appreciate 
your time.
    I appreciate your concern and we, the Cao Dai people, 
really need and appreciate it.
    Thank you.
    [The prepared statement of Ms. Duong follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Ms. Duong, thank you very much for your 
testimony, for detailing in your written submission seven 
specific instances which give greater detail as to the 
pervasiveness of these actions--and these were instances in 
2015--which, of course, continue to today.
    And without objection, your full statement and that of all 
of our distinguished witnesses will be made a part of the 
record. But thank you for your witness.
    Ms. Duong. Thank you, Mr. Chairman.
    Mr. Smith. Dr. Thang.

  STATEMENT OF NGUYEN DINH THANG, PH.D., PRESIDENT AND CHIEF 
               EXECUTIVE OFFICER, BOAT PEOPLE SOS

    Mr. Thang. Mr. Chairman and distinguished members of the 
committee, thank you for holding this hearing at this very 
critical time about missed opportunities to advance freedoms 
for 93 million Vietnamese people.
    As the previous speakers have said very well, the situation 
of religions in Vietnam remains very dire and deplorable. 
President Obama could have used his recent state visit to 
Vietnam to at least try to curb the backsliding in human rights 
in that country.
    He could have insisted that Vietnam release a significant 
number of prisoners of conscience before announcing the lifting 
of the arms embargo. That didn't happen.
    He could have challenged the leadership of Vietnam to 
answer the people's demand for transparency in the case of 80 
tons of dead fish as a gesture showing commitment to the 
environmental protection which, by the way, is a requirement 
under the Trans-Pacific Partnership, or TPP, and he didn't 
speak out on that issue either.
    President Obama could have demanded unhindered access to 
individuals he wanted to meet comparable to the level of access 
accorded to the Vietnamese President when he visited here in 
the States. Or President Obama could have called on authorities 
to honor the Convention Against Torture, which the National 
Assembly of Vietnam just ratified by, investigating and 
prosecuting known violators, and there are many of them.
    President Obama didn't do any of the above, 
disappointingly. Of the hundreds of prisoners of conscience, 
only Father Nguyen Van Ly was released and only by 10 weeks in 
advance of the end of his term of imprisonment.
    Hundreds of peaceful pro-environment protestors were 
arrested, detained and some were even beaten the weekend before 
and after the President's state visit to Vietnam. Civil society 
members invited to meet with the President were confined to 
their homes or even kidnapped.
    On top of that, two American citizens were abducted and 
detained, and by the way, one of them is here in this room--
Miss Dolly Khuu. She was one of the American citizens kidnapped 
and detained in Vietnam.
    The President brought home to America a $11.3 billion deal 
for Boeing, which is great. However, nothing for human rights, 
and the backsliding has accelerated of late.
    In just 1 week, 3 months ago--in just 1 week, four bloggers 
and three land rights activists were sentenced to a total of 33 
years of imprisonment.
    Many former prisoners of conscience who were only recently 
released from prison or house detention have been rearrested 
such as--and you know him very well, Mr. Chairman--lawyer 
Nguyen Van Dai, land rights activist Can Thi Theu and pro-
democracy advocate Tran Anh Kim.
    Many independent religious communities are facing 
increasingly brutal repression. Last August, a Hmong Christian 
was arrested the day after his meeting with members of the U.S. 
Commission on International Freedom (USCIRF).
    He was brutally tortured for 2 days and had to be 
hospitalized because he had met with the U.S. delegation and in 
January of this year a Montagnard pastor died from injuries 
caused by torture by the police.
    A fellow Montagnard pastor reported this death at a meeting 
with Ambassador David Saperstein last month. He himself was 
arrested and interrogated for 2 days.
    His interrogators threatened him with disappearance and 
harm to his wife and children if he did not stop reporting 
violations and did not renounce his faith.
    Mrs. Tran Thi Hong, the wife of imprisoned Lutheran Pastor 
Nguyen Cong Chinh and a human rights defender herself, was also 
arrested after her meeting with Ambassador Saperstein.
    She was subjected to repeated beatings and torture. Her 
daily ``working'' session with the police was suspended just 
before the arrival of President Obama to Vietnam but resumed 
immediately after his departure.
    I am glad to say that now it has stopped, thanks to the 
very strong intervention from Ambassador Saperstein himself. 
And let me show the picture of Mrs. Hong here.
    This is Pastor Nguyen Cong Chinh. He himself was brutalized 
several years ago before his imprisonment and this is Mrs. 
Hong, after the torture session--she was dumped in front of her 
house.
    She couldn't walk at all. She couldn't stand up. The 
neighbors passing by found her on the street and dragged her 
home. And this is her, Mrs. Hong, and the injuries to her knees 
and legs and feet and hands.
    And this is another incident of torture and you can see 
bruises and red marks on her face, and this is how the 
Vietnamese Government treated people who have met with U.S. 
delegations.
    And I believe it is an affront to our Government that 
President Obama didn't raise that issue, didn't condemn the 
Government of Vietnam to have done such things.
    And in the light of all these disturbing trends, somehow 
our administration still hangs its hope on Vietnam's promise to 
pass its first law on religion.
    Its latest draft would only cement the status quo and even 
make it worse by creating more bureaucratic layers of 
registration requirements and by completely eliminating the one 
section that was good in previous drafts.
    That was the section on compliance with international 
standards. That section had been removed in the latest draft of 
that law.
    Unless fundamentally and drastically modified, having no 
law at all would be a lesser evil.
    In early 2007, the Vietnamese Government launched a brutal 
political clamp down against dissidents and religious leaders 
right after it had gotten all it wanted, namely accession to 
the WTO, the lifting of the CPC designation, permanent normal 
trade relation status with the U.S. and playing host to the 
APEC Summit.
    The situation now is strikingly and disturbingly similar to 
then. Vietnam just got the U.S. arms embargo lifted, the TPP 
signed, and it will host again the APEC Summit next year.
    It is therefore critical that Congress now acts so as to 
avert the repeat of the 2007 fiasco by demanding that Vietnam 
be redesignated a Country of Particular Concern and that 
violators of religious freedom be placed under a U.S. visa ban, 
by enacting legislation which--with stricter monitoring and 
reporting requirements and more effective sanctions against 
human rights abusers, by delaying the ratification of TPP to 
allow for sufficient time to test Vietnam's willingness and 
resolve to honor labor rights, environmental protection and 
freedom of religion, to end torture and to combat modern-day 
slavery, by making any future sale of lethal weapons contingent 
on Vietnam's release of all prisoners of conscience, by giving 
Vietnam's civil society--and this is very important--
recognition and legitimacy through direct dialogue with its 
representatives of civil society networks such as Bloc 8406, 
Vietnamese Independent Civil Society Organizations Network, or 
VICSON, and Vietnam Multi-faith Roundtable, which was just 
recently formed, and finally, by coordinating intervention 
efforts with parliamentarians of other countries.
    There are many of them in Europe as well as in ASEAN who 
would be very much interested in working and collaborating with 
U.S. Members of Congress.
    With that, I thank you again, Mr. Chairman and Members of 
Congress.
    [The prepared statement of Mr. Thang follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Dr. Thang, thank you so very much for your 
leadership and for your incisive comments today, which are 
very, very helpful. Thank you.
    Mr. Kumar.

STATEMENT OF MR. T. KUMAR, DIRECTOR OF INTERNATIONAL ADVOCACY, 
                     AMNESTY INTERNATIONAL

    Mr. Kumar. Thank you very much, Chairman, Congressman 
Rohrabacher. I'm extremely pleased to be here to testify and I 
was thinking this may be the first time I'm testifying after a 
person had visited a country. Usually, we have hearings before 
to put pressure but you held one.
    But it's one of the realities of the occasion that after 
the visit we are having a hearing. That says it all about 
President Obama's human rights commitment and the way they 
negotiate human rights issues along with other issues.
    I also want to make sure that my written testimony is 
entered into the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Kumar. Thank you.
    Amnesty International has been working on human rights in 
Vietnam and other countries but in Vietnam for more than three, 
four decades. Things have never improved.
    It's improved sometimes when U.S. Presidents and others 
pushed and opened up a little bit. So the situation did not 
improve even when President Obama was about to visit.
    There were two things that happened before his visit. One 
is the annual human rights dialogue that took place between 
Vietnam and the U.S. No improvement at all.
    This became more of a annual exercise for the sake of 
having a dialogue. We thought something would happen because 
President Obama is about to visit.
    So then just before President Obama visited, for 2 weeks 
before, Assistant Secretary Malinowski and from the White House 
senior officials were there negotiating tried to get some 
results. Nothing except Father Ly, who was just released a 
couple of weeks before his due date.
    Then President Obama arrived. The administration, I will 
say, has misguided us before--they told us, we asked 
specifically, there are reports that the arms embargo will be 
lifted and they gave an indication that no, that's not the 
case.
    Even though Amnesty International did not take a position, 
we want to know what's going on because the reports are coming.
    Whether that was an intentional way of silencing us or 
whatever the reason, the very senior officials told us don't 
worry, no, no, no, we will consult you and all the rest of it.
    And everyone knew that the trade agreement, TPP, was one of 
the main reasons--one of President Obama's legacy. He wanted to 
keep that as a legacy.
    So these two issues were there. He went in, obviously being 
nice to Vietnam is to get them on board for TPP and also to 
everyone's surprise he announced that the arms embargo would be 
lifted. Okay, you have done all these things. You have given 
more than enough Vietnamese may have expected. But what in 
return you got was a slap in your face. In a nutshell, that is 
what happened.
    While he was there, people were arrested for peacefully 
protesting. People were held incommunicado house arrest, 
tortured. And it is very rarely defined, when a U.S. President 
is visiting a country, a host country pretty much treats 
someone who this particular President, or any U.S. President, 
is caring and supports his people without abusing them.
    That raises a serious question about how Vietnamese 
authorities look at President Obama's administration and also 
the U.S. for President Obama, as mentioned earlier, it is a 
slap in the face. He should have walked out.
    He should have said, I am leaving until you release these 
folks. He didn't do it. He was there enjoying all the parties 
and whatever he wanted to do, getting all the goodies.
    So it is disappointing. The big challenge the U.S. 
Government in the future will face is President Obama has 
lowered the bar so low that it will be very difficult for the 
next President whoever it may be to raise it.
    So that is a big challenge that the next administration 
should focus and to be mindful. Otherwise, it is going to be 
repeated. It is not only Vietnam. Other countries will feel the 
same way. Okay, we can push them and they will bend over 
backwards if we give a trade agreement and whatever the 
regional stability issues.
    The issues in Vietnam nearly everyone else said so I don't 
want to repeat. But it's really disturbing. Numerous people 
have been arrested. Prisoners of conscience have been 
imprisoned, tortured, died in custody.
    The list goes on. No institution is free there. Everything 
is under the control of the government, even the judiciary.
    So, no independent judiciary. No independent media. No 
independent institutions. Nothing is there. It is the 
government that controls everything and decides everything and 
lock people up--anyone who raises any voice.
    So as I mentioned earlier, President Obama's trip has sent 
an extremely negative impression to people of Vietnam and to 
people around the world that you can--you don't have to take 
the U.S. seriously when it comes to human rights.
    Thank you very much, Chairman, for inviting me and looking 
forward to the questions.
    [The prepared statement of Mr. Kumar follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Kumar, thank you again for your 
extraordinary candor. You, for years, no matter what the 
country that is being highlighted and focused upon, have always 
given such extremely valuable insights--unvarnished, no matter 
who is in the White House, Republican or Democrat, and I think 
that serves, obviously, the victims and the potential victims 
so extremely well.
    And to break this pattern of complicity, in my opinion, 
that this administration has engaged in with dictatorships, you 
are right, we need to be still hoping maybe against hope that 
this administration will find its voice on human rights and 
stop the rhetorical flourish and be substantive.
    I would just say that I have authored a number of laws on 
human rights, as you know. The international child abduction 
law--it is called the Goldman Act--the Sean and David Goldman 
International Child Abduction Prevention and Return Act--that 
legislation has a report attached to it as well as other 
aspects to it.
    Last year they got it wrong, famously wrong, about Japan 
and other nations. It was due on April 30th. That report is 
late. It will probably come as soon as we go into recess when 
everybody in the House and Senate are out of town. How cynical 
is that?
    The Trafficking Victims Protection Act last year--I am the 
author of the Trafficking Victims Protection Act and the TIP 
Report that comes out annually was due at the beginning of the 
month if not earlier. That has not yet arrived.
    Last year, 14 countries were erroneously placed or given 
passing grades when the TIP office itself thought those 14 
countries should have been what we call Tier 3--as you know, 
egregious violators and gave out inflated grades--in other 
words, bending the rules, breaking the rules I would suggest--
for political reasons and not human rights criteria.
    The Reuters news organization did an incisive series of 
investigative reports that found that country after country, 
from Cuba to China to Oman--all these countries that should 
have gotten horrible grades got passing grades through this 
administration, contrary to what their own TIP office had said 
they should be given because it was done for political reasons.
    So I find it abhorrent in the extreme that the President 
would go to Vietnam. There is an old saying--thanks, but no 
thanks. If I were a dissident in Vietnam, I would say, no 
thanks, Mr. President--please don't come, as well as the other 
phrase, more harm than good.
    You pointed out, Dr. Thang, that many people were arrested 
and harassed before, then during, and I am sure after as well. 
These people have suffered beatings and torture, directly 
attributable to the President's visit.
    That is unconscionable. The President should be on that 
phone. He should have said to the leadership in Vietnam even 
while there, if you do any more of this then I am out of here--
I will make an international incident--I stand with the 
oppressed, and I said earlier, not with the oppressor and you 
need to stop it.
    I know there are people from the Vietnamese Government in 
this room. I hope they convey that back to Hanoi. I find it 
appalling.
    If you were in trouble we would be fighting for you, and 
many people who are in government one day find themselves on 
the wrong side of the dictatorship and other, and who do they 
come to? They often come to the democracies including and 
especially the United States.
    A couple questions--I sensed a failure of the White House 
press corps and of the press corps generally to really rein in 
and focus on what was happening to the dissidents. There were a 
few stories--to me, it should have been the main story--that 
the President goes to Vietnam.
    Dissidents, journalists, bloggers, and people fighting for 
environmental protections were rounded up and tortured. That 
should have been the story, and yet it seems not to have been.
    Rabbi Saperstein testified last week before our 
subcommittee and I have a great deal of respect for him as the 
Ambassador-at-Large. But to think that he would meet with Mrs. 
Hong and she'd be beaten as well as others when he meets with 
them, that should have been the absolute red line that once 
crossed all bets were off.
    There should be a rescission of the lifting of the arms 
embargo. The President should do that today. There is nothing 
precluding him from today saying that arms embargo lifting, it 
is not going to happen--I am reversing myself because of the 
egregious human rights abuses being committed.
    So if you could maybe touch on the press corps side of it, 
what we ought to be doing further. We want to get the Frank R. 
Wolf International Religious Freedom Act out of the Senate.
    The Frank R. Wolf International Religious Freedom Act, 
which had 118 cosponsors including my good friend and colleague 
Chairman Rohrabacher, passed overwhelmingly. It is sitting in 
the Senate. My hope is they take it up soon.
    The Vietnam Human Rights Act--we are hoping our committee 
will take it up. I am talking about the full Committee on 
Foreign Affairs. Remember it passed four times.I21Even if it 
dies again in the Senate we will back again next year. We have 
to be as tenacious as the people who are suffering, giving of 
their blood and of their freedom. We could do no less. So we 
need to get that enacted as well as others.
    Ms. Duong, you talked about how they are using visas 
denying the ability to travel. Under the International 
Religious Freedom Act, and Vietnam should have been yesterday, 
but certainly today, designated as a CPC and when I did press 
Rabbi Saperstein on that, the Ambassador-at-Large, last week, 
there are provisions in there to deny visas to those who commit 
crimes against religious believers and they are done in a 
targeted and a calibrated way.
    Unfortunately, even under the Bush administration, there 
was one and that was against Modi, now the head of state for 
India. That tool needs to be used much more aggressively and it 
seems to me Vietnam should get that CPC designation and the 
visa ban needs to be imposed on people who hurt Cao Dai or 
Christians or anyone else.
    So on those few questions, then I yield to my friend, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Pastor Loan, you were ministering to the 
Montagnard people? When did you leave the central highlands?
    Pastor Loan. May 2014.
    Mr. Rohrabacher. All right. I spent some time there in 1967 
in Pleiku or near Pleiku anyway--that little French fort. They 
have a little French fort over there. I was operating out of 
there.
    Pastor Loan. I know.
    Mr. Rohrabacher. Okay. We won't go into what's gone on in 
that fort now. Kind of interesting what they did with it.
    But I know that the Montagnards were incredibly brave 
people, and did they suffer disproportionately after the 
Americans left? Those Montagnards who had allied with us, did 
they suffer more than other people in Vietnam?
    Pastor Loan. After the Americans left Vietnam that is when 
they started torturing the Montagnard people such as the people 
who joined force with the American force, helping Americans 
during the Vietnam War. They went hard on them, made them 
suffer or their family, basically, yes, after the Vietnam War.
    Mr. Rohrabacher. I have often wondered what had happened to 
some of the people I knew there and let me just note that the 
Vietnamese people sided with us during the Cold War and we 
walked away and they suffered because of it. However, we can 
make up for that, Mr. Chairman, by trying to be a strong voice 
now in trying to evolve communism out of that repressive 
system.
    (Applause.)
    Let me ask, does anyone here believe--well, first of all, 
in Vietnam now do they still use all these Communist slogans? 
Do they still use the Communist slogans to control the people?
    Does anyone here believe that they really believe in 
Marxism, Leninism? Do the people running the government 
actually believe in Marxist-Leninist principles, which is the 
basis of communism?
    My theory is they don't believe in this at all. They are 
just a bunch of thugs and gangsters and they could not care 
less about trying to create this new man that doesn't have any 
of this Communist propaganda that threatened the world for a 
long time, in fact.
    So they don't believe in it. Here they claim, using 
Communist slogans, yet Mr. Chairman, they are partnering with 
American businessmen in order to exploit their own people.
    Now we have a partnership between the ultimate capitalist 
and these Vietnamese ``leaders,'' the gangsters who run the 
country and then they have the gall to say that they are 
Communist when they are exploiting their own people and they 
are partnering with our own companies.
    Now, I am ashamed of our own companies, the Americans who 
are willing to use a totalitarian control of a people under the 
name of communism in order for them to make a profit. We saw 
that in China as well.
    I was very interested in what you were saying about the 
sermons, that the Communists actually come in and tell you that 
you have to get approval of your sermon before you are able to 
give it.
    I think that is so alien to Americans they could not 
imagine that that is happening in any country. How can anybody 
even imagine that?
    Mr. Chairman, I remember Ronald Reagan stated very clearly, 
he said that one of the biggest problems is that for Americans, 
who take freedom for granted because freedom is invisible. 
Freedom is when you don't have someone having to look at your 
sermon before you give the sermon.
    Freedom is when you don't have to get permission to do 
something before you do it and in dictatorships like in Vietnam 
that repression is there and the people see it every day.
    But Americans don't even know what to look for and that is 
why hearings like this are very important. And let me just note 
that it was very poignant, sir. You said that you are not 
allowed to use the word ``freedom.''
    And let me note, this is--I am sorry for being political 
here but we have a President of the United States who is unable 
to use the words ``radical Islamic terrorist'' and these people 
know that words have meaning and that is why the regime now, 
the gangster regime in Vietnam know that words have meaning.
    They don't want that powerful word there because freedom 
also implies responsibility and accountability because you have 
freedom of the press, which you don't have under this Communist 
system. And so these things all tie together.
    Let us hope that we are a shining light to the world, 
especially a beacon of hope to people who sided with us when 
they thought they were going to help us, and thank you again.
    I do believe that now is the time for the American people 
not just come to partnership with this TPP they are talking 
about.
    How could we possibly go along with an agreement that 
allows these gangsters to possibly be on that commission to 
decide whether or not we are in compliance with the trade 
treaty?
    It is a total elimination of standards and values for 
consideration and we should be instead fighting to make sure 
there are higher standards than just having our businessmen go 
over there and make a profit from basically labor that is not 
permitted to organize and from Vietnamese people who are being 
suppressed and their standard of living is so much lower than 
elsewhere.
    So thank you all very much for testifying today. Thank you, 
Mr. Chairman, for chairing this hearing.
    Mr. Smith. Thank you, Chair Rohrabacher.
    I did ask a few earlier questions and if you could come 
back to those and maybe add answers to them and this one would 
be to Mr. Kumar.
    The U.N. Special Rapporteur on the freedom of religion or 
belief, Bielefeldt, has said--regarding Vietnam--that the 
rights of freedom of religion and belief of such communities 
are grossly violated--we are talking about independent 
religious belief communities--in the face of constant 
surveillance, intimidation, harassment and persecution and, of 
course, Pastor Loan's church at least has some recognition and 
yet he has had such terrible experiences.
    What possibly might the Special Rapporteur do? Secondly, in 
your testimony you talk about the U.N. Convention Against 
Torture, entered into force in February, and you also pointed 
out that the We Are One campaign launched and in March a letter 
went to the U.N. Human Rights Council, so another bite of the 
apple, if you will, of trying to get the U.N. further engaged 
on human rights there.
    There were many signers, 27 local civil society 
organizations and 122 organizations. Is that bearing any fruit 
at the U.N. in terms of their reaction to these terrible 
abuses?
    Mr. Kumar. At the U.N., depending on that day, the Human 
Rights Council member states that are there, it is having some 
impact, especially when the special rapporteurs give their 
reports. So it takes some time.
    But there is some movement in that direction and also to 
the same point, U.S. is not a member at this moment for the 
last 1 year. It is running to be elected so in November we will 
know the results. But more than likely the U.S. will get 
elected.
    So once it gets elected, we want U.S. to take the 
leadership on religious freedom issues in some countries, 
especially Vietnam.
    Mr. Smith. If the United States leads and leads with 
transparency and strength and really speaks truth to power and 
not only affects the dictatorships of the world including the 
one that's being focused on but also, I would think, the other 
democracies who might take their lead from that.
    But as you said, if we lower that bar so low, it is, like, 
everyone just doesn't care or cares a lot less than they would 
have and the dictatorships like China, North Korea, Iran, and 
Cuba, look at that and say, they have abandoned human rights--
it is all talk--it is all rhetoric.
    And I am wondering, when Raul Castro said to the President 
or said in that meeting, give me the list of prisoners and I 
will release them, he should have said, here is the list.
    He was sitting right there. The State Department has a 
list. We have a list. We have made a trip down to the Embassy 
of Cuba several weeks ago trying to get a visa. I want to go. I 
want to give a list to Raul Castro.
    I was told by the Ambassador here in Washington to the 
United States from Cuba that there are certain parameters that 
would have to be followed about who I could meet with in terms 
of the dissident community. And I said do other congressional 
delegations do that and he said yes.
    So they are all pre-screened. Only certain people can be 
spoken with, or to, in an orchestration of a Potemkin village 
and they come back glowing about how great things are in Cuba. 
Well, we see this happening again and again. So that whole idea 
of human rights leadership--if you would like to answer that.
    Let me also ask you, Pastor Loan, you talked about Deacon 
Ngai being beaten to death. You might give us some additional 
details about that.
    I know it is very painful. But just so we know what 
happened in that incident, you know, so we have it fully on the 
record in terms of that brutality. But maybe you could start, 
Dr. Thang, first.
    Pastor Loan. Deacon Hoang Van Ngai was peaceful. He was a 
deacon and one day he went to his farm and they went to his 
farm and get them--beat them there and brought them to their 
office, their jail, and just tortured him and beat him to 
death.
    After that the girl--the authority did not let anybody see 
the body of the deacon and said that he died not because of 
torture but because he wanted to kill himself, that Deacon Ngai 
wanted to kill himself and did something to himself. That is 
why he died. It's not them.
    And they told me not to say a word about it and threatened 
my life if I did say something against them that testified that 
they were the one that beat Deacon Ngai to death and tortured 
him.
    Mr. Thang. Mr. Chairman, I am very knowledgeable about that 
case. In 2013, Deacon Hoang Van Ngai, a Hmong Christian, who--
and whose family were relocated from the northern part of 
Vietnam, the mountainous part of Vietnam, all the way down to 
the central part of Vietnam in order to escape persecution in 
the north.
    But he didn't fare any better. He and his brother were 
captured. Actually, they captured--the police captured their 
wives first and held them hostage. So Mr. Ngai and the brother 
had to report themselves to the police in order to set free 
their wives.
    And during detention the police tortured him, forcing him 
to renounce his faith and he refused repeatedly and he got 
tortured repeatedly until he died. And then a few months later 
the entire family--actually, his extended family wrote a 
petition to the government requesting investigation into his 
death.
    Then his cousin, Hoang Van Sang, living in the north, all 
the way in the north, got arrested by the police, taken into 
police custody for 10 days.
    After 10 days of detention the police delivered his corpse 
to his family and told the family that if anyone there should 
speak out about his death, this is the fate that they would 
suffer.
    And therefore about ten families of Mr. Ngai among his 
cousins and brothers had to escape to Thailand and our team in 
Thailand helped them.
    Fortunately, a number of them have already been recognized 
as refugees. And one thing I can say is that in 2014 it was 
Boat People SOS in conjunction with Christian Solidarity 
Worldwide, CSW, we broke the news about his death and not 
Pastor Rmah Loan at all.
    But that pointed to a very disturbing trend here. The 
perpetrators of torture have been treated with impunity in 
Vietnam while those who reported or believed to have reported 
torture and human rights abuses are being persecuted and 
threatened with incarceration, imprisonment, or even death.
    So, clearly, Vietnam is not intent on implementing the 
Convention Against Torture and that kind of policy will only 
encourage more violence and more torture, and this really is 
pointing out that our Government hasn't made public 
condemnation against that kind of practice.
    Mr. Smith. With regards to CPC designation Ambassador 
Saperstein made very clear and they have always had this 
authority that such a designation can be made at any time.
    It doesn't have to wait for an annual report. When the 
information on the ground merits it a designation, either 
improvement or a downgrade--in other words, a CPC designation, 
can be made.
    My question would be in your view should Vietnam receive 
such a designation, especially in light of Ambassador 
Saperstein's visit and Mrs. Hong's brutal beating, simply for 
meeting with the Ambassador-at-Large for international 
religious freedom.
    If that isn't an outrage that is like a tip of the iceberg 
for all the rest of the cruelty meted out by the Vietnamese I 
don't know what is.
    But your thoughts on that?
    Mr. Thang. Mr. Chairman, clearly, it is systematic because 
that is the law. There is a system. It occurs everywhere, not 
just in one place--repeatedly, not just one time.
    It is egregious. Torture is egregious. Forced renouncement 
of faith is egregious. Imprisonment is egregious. And it is 
ongoing. So if we just go by the books, clearly, Vietnam should 
be designated as CPC, no doubt about that.
    I would like to point out one other thing about the U.N. 
Special Rapporteur on freedom of religion or belief. Last year 
in September, we organized the first conference on freedom of 
religion or belief in Southeast Asia and we held it in Bangkok 
in late September. A number of Cao Dai religious leaders and 
dignitaries came to that conference to meet with the U.N. 
Special Rapporteur.
    And when they returned to Vietnam they were placed under 
the visa travel ban, and that's what Ms. Duong just mentioned. 
So that is very outrageous.
    There is an agreement between the Vietnamese Government and 
the U.N. Human Rights Council. That is, people who talk, who 
report, who speak to or who make reports to the U.N. Special 
Rapporteur should not be mistreated or punished.
    Mr. Smith. I will just conclude. Pastor Loan, when you 
talked about and testified about how the government controls 
the words that can be used it reminds me of--there was a 
National Geographic documentary about this eye doctor who went 
to Pyongyang and was actually helping people with cataracts and 
other eye problems and many went from being almost blind to 
being able to see.
    Kim Jong Il was the dictator then and his picture was in 
this mass meeting room where everybody gathered to thank the 
doctor, and the thanks to the doctor was slim to almost none 
and their praise and worship of the dictator just eclipsed all 
else.
    It was the government--the cult of personality--and 
obviously when you have an insecurity on the part of a 
government like Vietnam where they have to have the thank yous 
first to them, then to God and anyone else, and all the other 
wordsmithing that they impose upon even those that are 
recognized churches it just shows a gross insecurity on the 
part of that government.
    A psychiatrist could have a field day with that, it would 
seem to me. Dr. Thang, did you want to comment on it?
    Mr. Thang. Just about that, I would like to remind everyone 
here that what is happening with Pastor Rmah Loan's church is 
actually about a church that has been legally recognized by the 
Government of Vietnam.
    His church is probably the largest Christian church in 
central highlands, and if there is a Department of State 
delegation or USCIRF delegation or Member of Congress visiting 
Vietnam, they most likely would be invited to go to that church 
to showcase how much freedom of religion there is in Vietnam.
    And yet, behind closed doors, that is what is happening. A 
member of that church--a key member of that church--that is 
Deacon Hoang Van Ngai--was tortured to death because he refused 
to renounce his faith and then his pastor was prohibited from 
making any mention about his death, and then family members 
have been tracked down and threatened to the point they had to 
flee their home villages.
    And now the pastor is in the U.S. fearing persecution or 
even imprisonment and death upon return to Vietnam. So that is 
how a state-sanctioned church is being treated, let alone 
unrecognized independent religious communities just like the 
Cao Dai group here that she's represented.
    Mr. Smith. Before I ask you if you have anything final you 
would like to say, I would like to recognize in the audience 
two very distinguished persons.
    First, Joseph Rees, Ambassador Rees, our first Ambassador 
to East Timor, or Timor-Leste, who also served many years ago 
as chief of staff and chief counsel for the International 
Operations and Human Rights Subcommittee.
    In fact, when we were doing many of the initiatives to try 
to rescue those people who were going to be sent back during 
the Comprehensive Plan of Action, working with Dr. Thang, 
Joseph played a pivotal role in ensuring that those 20,000-plus 
people came here as well as other things.
    Also, Anh ``Joseph'' Cao is here as well, a former 
Congressman and good friend, first Vietnamese-American 
Congressman, and was a great leader when he was here. We miss 
him, but it is great to see him and I know he works alongside 
Boat People SOS as well.
    Would any of you like to say anything before we conclude?
    Pastor Loan. I know for sure if I return back to Vietnam 
there will be punishment for me for sure. So I would like to 
ask to stay here.
    Mr. Smith. Thank you.
    Pastor Loan. Would you help me get that? Thank you for your 
time.
    Mr. Smith. Thank you. The hearing is adjourned, and I thank 
you again.
    [Whereupon, at 3:31 p.m., the subcommittee was adjourned.]

                                  
                                     

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

         
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
